 

U.S, Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

November 14, 2019

Honorable Scott 8. Harris

Clerk

Supreme Court of the United States
Washington, D.C. 20543

Re: John Doe 1, etal. v. Federal Election Commission,
S.Ct No, 19-484

Dear Mr. Harris:

The petition for a writ of certiorari in the above-captioned case was filed on September
16, 2019, and placed on the docket on October 15, 2019. The government’s response is due on
November 14, 2019.

We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including December 16, 2019, within which to file the government’s response.

This extension is requested to complete preparation of the government’s response, which .
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,

Noel J. Francisco
Solicitor General

cc: See Attached Service List
19-0484
JOHN DOE 1, ET AL.
FEC

PAUL D. CLEMENT

KIRKLAND & ELLIS LLP

1301 PENNSYLVANIA AVE., NW
WASHINGTON, DC 20004
202-389-5000
PAUL.CLEMENT@KIRKLAND.COM

MICHAEL DRY

VINSON & ELKINS

2200 PENNSYLVANIA AVE., NW
SUITE 500 WEST
WASHINGTON, DC 20037

WILLIAM W. TAYLOR, III
ZUCKERMAN SPAEDER LLP
1800 M STREET, NW

SUITE 1000

WASHINGTON, DC 20036
